UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2992
Joseph Raimondo
Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S. Employee, et al.
Appellees

Appeal from U.S. District Court for the Western District of Missouri - Jefferson City
(2:17-cv-04254-NKL)

ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Grasz did not participate in the consideration or decision of this matter.
May 16, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 18-2992

Joseph Raimondo
Plaintiff - Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S. Employee; Lawrence Paul Zatkoff, U.S.
District Judge, U.S. Employee; George Caram Steeh, U.S. District Judge, U.S. Employee; John
Corbett O'Meara, U.S. District Judge; Internal Revenue Service, U.S. Department;
Commissioner John Koskinen, U.S. Employee; Carolyn Chiechi, Federal Tax Judge, U.S.
Employee; Macomb County, a County of the State of MI; Lt. Lynn Baumgarten, Employee of
M/C MI; James Meyerand, an Employee of M/C MI; Village of Armada, an incorporated MI
Village; Ben Delecke, an employee servant of the A/Village; Thomas Meyers, Attorney in
interest of A/Village; Capac State Bank; John Doe; Democratic National Committee; United
States of America
Defendants - Appellees

Appeal from U.S. District Court for the Western District of Missouri - Jefferson City
(2:17-cv-04254-NKL)

JUDGMENT

Before COLLOTON, SHEPHERD, and ERICKSON, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
February 20, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2992
Joseph Raimondo
Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S. Employee, et al.
Appellees

Appeal from U.S. District Court for the Western District of Missouri - Jefferson City
(2:17-cv-04254-NKL)

ORDER
Appellant's motion to amend petition for rehearing is granted. The clerk is directed to file
the petition for en banc rehearing.

April 17, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

18-2992 Joseph Raimondo v. Denise Hood, et al

Eighth Circuit Court of Appeals
PRO SE Notice of Docket Activity
The following was filed on 04/1 7/2019
Case Name: Joseph Raimondo v. Denise Hood, et al
Case Number: 18-2992
Docket Text:
PETITION for enbanc rehearing and also for rehearing by panel filed by Appellant Mr. Joseph
Raimondo w/service 04/17/2019 by USCA8. [4778781] [18-2992]
The following document(s) are associated with this transaction:
Document Description: Petition for En Banc Rehearing
Notice will be mailed to:
Mr. Joseph Raimondo
P.O. Box 330
Armada, MI 48005
Notice will be electronically mailed to:
Mr. Robert Joel Branman I: robert.j.branman@usdoj.gov, appellate.taxcivil@usdoj.gov
Mr. Ross H. DeLong: ross.delong@huschblackwell.com
Mr. Marc E. Elias: melias@perkinscoie.com
Mr. Jordan D. Howlette: jordan.howlette@usdoj.gov
Mr. Uzoma Nkwonta: unkwonta@perkinscoie.com
Mr. Jeffrey P. Ray: Jeffrey.Ray@usdoj.gov,
USAMOW.ECFCivil@usdoj.gov,CaseView.ECF@usdoj.gov
Mr. Nicholas Savio: nsavio@fsmlawfirm.com
Mr. John G. Schultz: jschultz@fsmlawfirm.com, jlading@fsmlawfirm.com
Mr. Jeffrey Simon: jeff.simon@huschblackwell.com,
gayle.switzer@huschblackwell.com,jeffrey-simon-2627@ecf.pacerpro.com
Mr. Graham M. Wilson: gvvilson@perkinscoie.com

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2992
Joseph Raimondo
Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S. Employee, et al.
Appellees

Appeal from U.S. District Court for the Western District of Missouri - Jefferson City
(2:17-cv-04254-NKL)

ORDER
If the original file of the United States District Court is available for review in electronic
format, the court will rely on the electronic version of the record in its review. The appendices
required by Eighth Circuit Rule 30A shall not be required. In accordance with Eighth Circuit
Local Rule 30A(a)(2), the Clerk of the United States District Court is requested to forward to this
Court forthwith any portions of the original record which are not available in an electronic
format through PACER, including any documents maintained in paper format or filed under seal,
exhibits, CDs, videos, administrative records and state court files. These documents should be
submitted within 10 days.
September 18, 2018

Order Entered Under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Addresses For Case Participants: 18-2992
Mr. Joseph Raimondo
P.O. Box 330
Armada, MI 48005
Mr. Ross H. DeLong
HUSCH & BLACKWELL
Suite 1000
4801 Main Street
Kansas City, MO 64112
Mr. Marc E. Elias
PERKINS & COTE
Suite 600
700 13th Street, N.W.
Washington, DC 20005-3960
Mr. Jordan D. Howlette
U.S. DEPARTMENT OF JUSTICE
TAX DIVISION
555 4th Street
Washington, DC 20001
Mr. Uzoma Nkwonta
PERKINS & COIE
Suite 600
700 13th Street, N.W.
Washington, DC 20005-3960
Mr. Jeffrey P. Ray
U.S. ATTORNEY'S OFFICE
5510 Charles Evans Whittaker Courthouse
400 E. Ninth Street
Kansas City, MO 64106-2149
Mr. Nicholas Savio
FRANKE & SCHULTZ
8900 Ward Parkway
Kansas City, MO 64114-0000
Mr. Jeffrey Simon
HUSCH & BLACKWELL
Suite 1000
4801 Main Street
Kansas City, MO 64112
Mr. Graham M. Wilson
PERKINS & COIE
Suite 600
700 13th Street, N.W.
Washington, DC 20005-3960

Ms. Paige Wymore-Wynn
U.S. DISTRICT COURT
Western District of Missouri Clerk's Office
U.S. Courthouse
80 Lafayette Street
Jefferson City, MO 65101

